         Office of Inspector General




June 15, 2006

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT:      Transmittal of Audit Report – Follow-up Review of the Postal Inspection
              Service Consumer Fraud Awareness Fund
              (Report Number SA-AR-06-006)

This report presents the results of our follow-up review of the Postal Inspection Service
Consumer Fraud Awareness Fund (CFAF) (Project Number 06YG002SA000). Overall,
the Postal Inspection Service managed the CFAF efficiently and effectively and has
effective controls to reduce the risk of CFAF fraud, waste, and mismanagement.
Specifically, the Postal Inspection Service has: (1) documented policies and
procedures regarding the transaction and approval process; (2) implemented
procedures to ensure separation of duties to reduce the risk of error, waste,
mismanagement, and fraud; (3) provided senior management with regular reports on
the status of the fund; and (4) reported all expenditures that could give the appearance
of inappropriate use to senior management.

This report contains no recommendations. We discussed the report with management
and incorporated suggested changes as appropriate. Management chose not to
provide comments.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Sandra Bruce,
director, Oversight of Investigative Activities, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI



Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations
Attachments
cc: Mary Anne Gibbons
    William E. Kezer
    Zane M. Hill
    Steven R. Phelps
Follow-up Review of the Postal Inspection Service                                                     SA-AR-06-006
 Consumer Fraud Awareness Fund


                                               INTRODUCTION
Background                          In 1997, the Postal Inspection Service created the
                                    Consumer Fraud Awareness Fund (CFAF) and funded it
                                    with a court-awarded settlement of approximately $3 million
                                    from a fraud investigation in the Southern District of Iowa.
                                    The funds were deposited into the Postal Service Fund1 and
                                    credited to the CFAF account to be used for fraud
                                    prevention, consumer awareness campaigns, and fraud
                                    investigations support.

                                    In July 2003, the U.S. Postal Service Office of Inspector
                                    General (OIG) initiated a review of the Postal Inspection
                                    Service CFAF (Project Number 03BG067SA000) to
                                    determine the adequacy of its administration. During the
                                    review, we determined that further improvements were
                                    needed to the overall management of the CFAF, which was
                                    used to pay for the Seventh U.S. – Canada Cross-Border
                                    Crime Forum hosted by the Postal Inspection Service at the
                                    Greenbrier Resort. For example, approximately $113,943 in
                                    expenditures for items such as entertainment, decorations,
                                    and gifts incurred during the forum gave the appearance of
                                    inappropriate use of the CFAF.

                                    We issued an audit closeout letter in March 2004. The
                                    closeout letter noted the Postal Inspection Service
                                    management could improve the overall CFAF management
                                    by: (1) documenting policies and procedures regarding the
                                    transaction and approval process; (2) ensuring separation of
                                    duties to reduce the risk of error, waste, mismanagement,
                                    and fraud; (3) providing senior management with regular
                                    reports on the status of the fund; (4) annually reporting the
                                    status of all disbursements from the fund to the court as
                                    stipulated in the pretrial agreement; and (5) reporting all
                                    expenditures that could give the appearance of
                                    inappropriate use to senior management.

Objective, Scope,                   The objective was to determine if the Postal Inspection
and Methodology                     Service was managing the fund efficiently and effectively.
                                    Specifically, the OIG determined whether the Postal
                                    Inspection Service : (1) documented policies and
                                    procedures regarding the transaction and approval process
                                    for the CFAF; (2) implemented procedures to ensure

1
    A revolving fund in the Treasury of the United States as defined in 39 U.S. Code, Section 2003.



                                                            1
Follow-up Review of the Postal Inspection Service                               SA-AR-06-006
 Consumer Fraud Awareness Fund


                               separation of duties to reduce the risk of error, waste,
                               mismanagement, and fraud; (3) provided senior
                               management with regular reports on the status of the fund;
                               (4) annually reported the status of all disbursements from
                               the fund to the court as stipulated in the pretrial agreement;
                               and (5) reported all expenditures that could give the
                               appearance of inappropriate use to senior management.

                               To accomplish our review, we interviewed Postal Inspection
                               Service officials and researched applicable Postal Service
                               and Postal Inspection Service policies and procedures.
                               Additionally, we judgmentally sampled and reviewed
                               expenditures to determine whether procurement procedures
                               were followed, including procedures for requesting,
                               approving, and justifying purchases. We reviewed whether
                               CFAF expenditures were appropriately used for fraud
                               prevention, consumer awareness campaigns, and fraud
                               investigations support, as intended. We reviewed
                               $5.1 million of $5.6 million and $8.9 million of $10.5 million
                               of CFAF expenditures incurred in fiscal years (FY) 2004 and
                               2005, respectively.

                               We also judgmentally sampled and reviewed deposits in the
                               CFAF to identify reporting and other requirements and to
                               determine whether the Postal Inspection Service met those
                               requirements. We reviewed deposit documentation for
                               $34.0 million of the $35.0 million in funds received during
                               FYs 2004 and 2005.

                               We conducted this audit from November 2005 through
                               June 2006 in accordance with generally accepted
                               government auditing standards and included such tests of
                               internal controls as we considered necessary under the
                               circumstances. We discussed our observations and
                               conclusions with management officials and included their
                               comments where appropriate.

Prior Audit Coverage           We did not identify any prior audits or reviews related to the
                               objective of this audit, other than the review discussed in the
                               background section of this report.




                                                    2
Follow-up Review of the Postal Inspection Service                                  SA-AR-06-006
 Consumer Fraud Awareness Fund


                                              AUDIT RESULTS
Management of the                   Overall, the Postal Inspection Service managed the CFAF
Consumer Fraud                      efficiently and effectively and has effective management
Awareness Fund                      controls to reduce the risk of CFAF error, waste,
                                    mismanagement, and fraud. Specifically, the Postal Inspection
                                    Service has: (1) documented policies and procedures regarding
                                    the transaction and approval process; (2) implemented
                                    procedures to ensure separation of duties to reduce the risk of
                                    error, waste, mismanagement, and fraud; (3) provided senior
                                    management with regular reports on the status of the fund; and
                                    (4) reported all expenditures that could give the appearance of
                                    inappropriate use to senior management.

Policies and                        The Postal Inspection Service follows Postal Service Handbook
Procedures                          F-20A, Accounting Service Center Accounting Guidelines,
                                    October 10, 2001, for depositing funds into the CFAF. This
                                    handbook provides guidance for depositing funds, including
                                    processing and accounting procedures.

                                    Additionally, the Postal Inspection Service follows, Postal
                                    Service Interim Internal Purchasing Guidelines, May 19, 2005,
                                    for obtaining goods and services using CFAF funds. This policy
                                    includes procedures for requesting and approving purchases.
                                    Additionally, this policy provides guidelines for making
                                    purchases using the competitive and noncompetitive purchase
                                    methods. In most cases, competition is the most effective
                                    purchasing method because it brings market forces to bear and
                                    helps purchase teams compare the relative value of competing
                                    proposals and prices and thereby determine the best value. If
                                    the noncompetitive method is deemed the most effective
                                    business practice, the rationale for the decision must be
                                    documented in a business case.

                                    Also, in 2005, the Postal Inspection Service established its own
                                    purchasing guidelines2 which parallel the Postal Service Interim
                                    Internal Purchasing Guidelines. The manual describes local
                                    buying authority as having the right to buy and pay for day-to-
                                    day operational needs that do not exceed $10,000 per
                                    purchase. Postal Inspection Service managers (such as
                                    inspectors-in-charge, designated field inspectors, and program
                                    managers) are given local buying authority. Purchases greater
                                    than $10,000 require the approval of the Capital Investment

2
    U.S. Postal Inspection Service Purchasing Guidelines, 2005.



                                                           3
Follow-up Review of the Postal Inspection Service                                 SA-AR-06-006
 Consumer Fraud Awareness Fund


                               Committee, which is comprised of the chief postal inspector,
                               deputy chief inspector, and assistant chief inspectors.

Separation of Duties           Procedures for depositing funds into the CFAF and purchasing
                               goods and services using CFAF funds allowed for sufficient
                               separation of duties. Specifically:

                                   •   Postal Inspection Service officials receive and forward
                                       CFAF checks to Postal Service accounting to process
                                       and deposit into the CFAF. A Postal Inspection Service
                                       official cannot deposit checks directly into the CFAF
                                       account without coordinating with a Postal Service
                                       accounting official.

                                   •   Purchases generally require at least two individuals, a
                                       requestor and an approving official. Furthermore,
                                       purchases of goods and services over $10,000 require
                                       senior management approval and certain capital
                                       purchases require the approval of the Capital Investment
                                       Committee.

CFAF Expenditures              The Postal Inspection Service appropriately expended CFAF
                               funds in FYs 2004 and 2005. Our review of CFAF expenditures
                               of $5.1 million for FY 2004 and $8.9 million for FY 2005
                               determined that Postal Inspection Service personnel properly
                               prepared and approved purchase requisitions for goods and
                               services. Further, these expenditures were for fraud-related
                               activities and, therefore, met the requirement for using the
                               CFAF. Table 1 provides a breakdown of expenditures we
                               reviewed.

                                    Table 1. CFAF Expenditures By Category and Fiscal Year

                                                    Category            FY 2005        FY 2004

                                  Investigative Support                $7,045,194     $3,186,179
                                  In-Service Training                      99,342        279,116
                                  Inter-Agency Prevention Projects        187,725        165,063
                                  Consumer Prevention Campaigns/
                                  Multi-Media Prevention Initiatives    1,590,449      1,456,852
                                    Total:                             $8,922,710     $5,087,210

                               The following provides more details on the four categories of
                               CFAF expenditures:




                                                      4
Follow-up Review of the Postal Inspection Service                             SA-AR-06-006
 Consumer Fraud Awareness Fund


                                   1. Investigative Support – The Postal Inspection Service
                                      uses investigative support personnel to assist with
                                      consumer fraud and financial crime investigations. For
                                      example, the Postal Inspection Service has hired former
                                      law enforcement personnel with demonstrated expertise
                                      in consumer fraud investigations and other individuals
                                      with specific technical skills (such as information
                                      technology and forensic accounting).

                                   2. In-Service Training – The Postal Service provides
                                      training to inspectors on fraud and related topics. For
                                      example, in FY 2005, the Postal Inspection Service
                                      trained approximately 280 postal inspectors in the area of
                                      consumer fraud, with an emphasis on white collar crime.

                                   3. Inter-Agency Prevention Projects – The Postal Inspection
                                      Service sponsored several inter-agency law enforcement
                                      initiatives and partnerships beneficial to protecting the
                                      American public against fraud.

                                   4. Consumer Prevention Campaigns/Multi-Media
                                      Prevention Initiatives – The Postal Inspection Service
                                      protects the American public from fraudulent schemes by
                                      educating people about fraud trends that target various
                                      vulnerable groups, such as the elderly. During FY 2005,
                                      the Postal Inspection Service funded several prevention
                                      campaigns and projects, such as distributing fraud
                                      prevention videos.




                                                    5
Follow-up Review of the Postal Inspection Service                               SA-AR-06-006
 Consumer Fraud Awareness Fund



Year-End Report                Beginning with FY 2004, the Postal Inspection Service
                               appropriately prepared a consumer fraud fund year-end report
                               summarizing fund activities and financial status. The report
                               provides background information on the CFAF, fund balances,
                               deposits, interest earned, and expenditures. See Appendices A
                               and B for the Consumer Fraud Fund Year-End Reports for
                               FYs 2005 and 2004, respectively.

Status of                      The Postal Inspection Service did not annually report the status
Disbursements                  of all disbursements to the court as stipulated in the pretrial
Reported to the Court          diversion agreement. In December 2001, the U.S. District Court
                               for the Southern District of Illinois awarded the Postal Inspection
                               Service $15 million, resulting from a Postal Inspection Service
                               investigation into fraudulent marketing activities. The funds
                               were deposited into the CFAF to support activities to facilitate
                               preventing and investigating frauds against the public. In the
                               pretrial diversion agreement, the chief postal inspector was
                               required to annually report the status of all disbursements from
                               these funds to the court. In a letter attached to the agreement,
                               the Postal Inspection Service also agreed to make an annual
                               accounting to the court clerk’s office.

                               The Postal Inspection Service received the monetary award in
                               CY 2002 and 2003 and subsequently spent it without making
                               any accounting to the court. The pretrial diversion agreement
                               has expired and court records show that in October 2003, the
                               district judge dismissed the criminal information against the
                               complainant, ending the court’s jurisdiction over the agreement.
                               The OIG could not find any evidence of the court enforcing the
                               Postal Inspection Service’s reporting requirement. Therefore, it
                               is the opinion of the OIG Legal Services that the Postal
                               Inspection Service’s requirement to report the disbursements to
                               the court is no longer legally enforceable.

                               In addition, in our review of documentation associated with
                               funds received in FYs 2004 and 2005, there were no reporting
                               requirements stipulated. Because this issue has minimal impact
                               on the management of the fund, we have no recommendation.

Overall Assessment             Overall, the Postal Inspection Service has effective
                               management controls to reduce the risk of CFAF error, waste,
                               mismanagement, and fraud. Therefore, we are not providing
                               any recommendations.




                                                    6
Follow-up Review of the Postal Inspection Service       SA-AR-06-006
 Consumer Fraud Awareness Fund


                                           APPENDIX A

  CONSUMER FRAUD FUND FISCAL YEAR 2005 YEAR-END REPORT




                                                    7
Follow-up Review of the Postal Inspection Service       SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    8
Follow-up Review of the Postal Inspection Service       SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    9
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    10
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    11
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    12
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    13
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    14
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund



                                           APPENDIX B

  CONSUMER FRAUD FUND FISCAL YEAR 2004 YEAR-END REPORT




                                                    15
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    16
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    17
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    18
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    19
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    20
Follow-up Review of the Postal Inspection Service        SA-AR-06-006
 Consumer Fraud Awareness Fund




                                                    21
